SDOW F 1325 8

  TF,       C)
        07-,O


 SUnited States Government -Department                                                                            of Jaw y


  Memorandum
             DATE:     April 19, 2004                                                  Audit Report Number: OAS-L-04-14
        REPLY TO
         ATTN OF:      IG-30
         SUBJECT:      Review of Selected Issues Pertaining to Vapor Inhalation Allegations at the Hanford Site
                 TO:   Assistant Secretary for Environmental Management

                       INTRODUCTION AND OBJECTIVE

                       In May 2003, the Office of Inspector General (OIG) initiated a Department-wide audit
                       addressing whether the Department's Computerized Accident/Incident Reporting
                       System (CAIRS) contained accurate data. During the course of this audit, the OIG
                       became aware of concerns regarding safety and health matters at the Hanford Site. At
                       the request of the Secretary of Energy, the OIG subsequently began a criminal
                       investigation into related allegations publicized in a September 2003 report issued by
                       the Government Accountability Project (GAP).

                       In addition to the investigation, we chose, as part of our on-going review, to perform a
                       limited review of accident and injury records to determine whether the Hanford
                       contractors had correctly classified 45 chemical vapor exposure incidents cited in
                       Appendix B of GAP's report. Our review involved the examination of data drawn
                       from employee case files and contractor maintained occupational injury and illness
                       files.

                       The OIG continues to investigate allegations of fraud at Hanford as well as any other
                       concerns that may be identified as potential criminal violations. Accordingly, the
                       results presented in this report are qualified pending completion of the investigation.
                       Separately, the Department's Office of Independent Oversight and Performance
                       Assurance and other external groups are also conducting reviews of related issues.


                       CONCLUSIONS AND OBSERVATIONS

                       We concluded that Hanford contractors had, for the most part, correctly classified the
                       chemical vapor exposure cases reported in Appendix B of the GAP report. Of the 45
                       items examined:

                         * Contractors appropriately classified 35 of the cases, while two exposures were
                           incorrectly classified as non-recordable;
                         * Four were not discrete incidents and duplicated other cases, thus were excluded
                           from the universe of cases we reviewed; and,
                         * We were unable to obtain sufficient information as to theexistence and/or
                           nature of four other purported exposures and were unable to reach a conclusion
                           regarding those.
To determine if the cases were correctly classified, we used rules promulgated by the
Occupational Safety and Health Administration (OSHA). The OSHA definition of
"recordable" incidents includes work-related injuries and illnesses that result in medical
treatment-beyond first aid, days away from work, restricted work activity or job
transfer, loss of consciousness, cancer, chronic irreversible disease, and death.
Recordable injuries and illness are required to be logged onto a Log of Work-Related
Injuries andIllnesses (Form 300) - also known as OSHA 300 logs. Based on our
review of available documentation, we found the contractors' reporting for 35 of the
cases to be consistent with OSHA guidance. Specifically:

      *   Three cases were "recordable" cases and were appropriately entered into the
          contractor's OSHA 300 logs;

      *   Twenty-nine cases were appropriately treated as "report only" or first-aid
          cases;

      n   One case was not recorded as either a first aid case or recordable injury
          because the individual never reported to the medical unit; and,

      o   Two of the cases were properly classified as non-recordable because the
          reported symptoms were considered to be non-work related.

Two of the exposure incidents were incorrectly classified as non-recordable. For one
of the cases, the contractor officials initially classified the case as first aid because the
treatment that was provided did not meet the OSHA requirements for recordability.
While work restrictions were later imposed as a result of the exposure - thus making it
a recordable incident - the contractor had not reclassified the case by the time of our
review. The second case involved an employee's work transfer from the Tank Farms
as a result of an exposure. Based on our review and an assessment performed by a
safety expert from another site, we determined that the case should have been
recorded. When'notified of the results of these reviews, contractor officials corrected
the reporting of this case.


SUGGESTED ACTION

We suggest that the Department, as part of its on-going review, consider the results
described in this report in arriving at its overall conclusion regarding health and safety
related issues at Hanford.




                                            2
SCOPE AND METHODOLOGY

Our limited review was performed between March 1, 2004 and April 12, 2004 at the
Hanford Site in Richland, Washington. The scope of the audit was limited to 1)
reviewing-available documentation regarding the 45 vapor exposure cases listed in
Appendix B of the GAP report; and, 2) determining whether these cases were
correctly classified as recordable, if appropriate.

To accomplish the audit objective, we reviewed case files for the pertinent exposure
incidents including "Record of Visit" forms, documentation from the Government
Accountability Project concerning vapor exposure incidents, and CH2M Hill Hanford
Group's Problem Evaluation Request system. We compared the data obtained to
OSHA recordability rules in 29 CFR Part 1904. We also interviewed key personnel in
the Department's Office of River Protection and Departmental contractors CH2M Hill
Hanford Group and the Hanford Environmental Health Foundation to gain an
understanding of the data available, how such data was produced and used, and health
and safety issues related to the Hanford Tank Farm.

This review was performed in accordance with generally accepted Government
auditing standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed internal controls over the Department's reporting
of worker injuries and illnesses. Because our review was limited, it would not have
necessarily disclosed all internal control deficiencies that may have existed at the time
of our audit. In performing this review, we did not rely on computer-processed data.

 The results of the review were discussed with the Manager, Office of River Protection
 on April 12, 2004. Since no recommendations are being made in this report, a formal
 response is not required. We appreciate the cooperation of your staff throughout the
 audit.




                                               William S. Maharay
                                               Deputy Inspector General
                                                for Audit Services
                                               Office of Inspector General


cc: Assistant Secretary, Environment, Safety and Health
    Director, Office of Independent Oversight and Performance Assurance.
    Manager, Office of River Protection




                                           3
04/22/04          THU 14:50 FAX 423 241 3897                     OIG                              4-,   HQ           1[005

 DOE F.13251


 United States Government                                                                     Department of Energy


 memorandum
               DATE:   April 19,       2004
      REPLY TO
       ATTN OF:        G1-36 (A041F035)

      SUBJECT:         Audit Report on "Review of Selected Issues Pertaining to Vapor Inhalation Allegations at
                       the Hanford Site"
                 TO:   Director for Performance Audits and Administration

                       Attached is the required final report package on the subject audit. The pertinent details
                       are:

                       1. Staff days:               Programmed         N/A         Actual   N/A
                              Elapsed days:         Programmed _ 365               Actual   49

                       2. Names of OIG audit staff:
                              Assistant Director:         Fred Pieper
                              Team Leader:                Jonathan Black
                              Auditor-in-Charge:          Michelle Caldwell


                       3. Coordination with Investigations and Inspections:

                              The Letter.Report was discussed with Chris Sharpley, the Deputy Inspector General
                              for Investigations and Inspections, on April 13, 2004.




                                                                             Phillip . Holbrook, Director
                                                                             Environmental Audits Division
                                                                             Office of Inspector General

                       Attacunents:

                       1.     Final Report (2)
                       2.     Monetary Impact Report
                       3.     Audit Project Summary Report
                       4.     Audit Database Information Sheet
04/22/04   THU 14:50 FAX 423 241 3897                            OIG                               444 HQ                                 .006




                             MONETARY IMPACT OF REPORT NO.: OAS-L-04-•4


           1. Title of Audit:         Review of Selected Issues Pertaining to Vapor Inhalation Allegations at the
                                      T-Tanford Site

           2. Division:               Environmental Audits Division

           3. Project No.:            A04TF035

           4. Type of Audit:

           Financial:                                              Performance:.      X
              Financial Statement                                    Economy and E'ficiency
              Financial Related                                      Program Results                            X
           Other (specify type):

           5.

                                                                                                                     MGT.      POTENTIAL
                     FINDING                      COST                        QUESTIONED COSTS                      POSITION    BUDGET
                                             AVOIDANCE                                                                          IMPACT
           (A)            (B)               (C)        (D)          ()           (IP)      (G)         (H)             (1)         (.1)
                          Title            One      Recurrirg    Questioned    Unstip-    Unrc-       'ntnl         C-Concur     Y-Yes
                                           Time      Amount                    ported    solved   (E)+(F)+(G)       N=Noncon     N=No
                                                     PerYcar    _U-0lndec




            (.)ITAIS-AL... FINDINGS




           6. Remarks: The report concluded that the Hanford contractors, for the most part,
                       correctly classified the chemical vapor exposure cases reported in Appendix
                       B of the Government Accountabi lity Report.

           7. Contractor:                                           10. Approvals:
           8. Contract No.:                                         Division Director/Date"                          /
           9. Task Order No.:                                       Technical Advisor & Date
    04/22/04      THU 14:51 FAX 423 241 3897                           OIG                            -*-    HQ                       008

                                        Audit       Project          Office    Summary        (APS)
                                                                                                                                 Page 1
teport run on:                    April 22, 2004 10:26 AM


  Audit#: A04IF035               Ofc:   IFA      Title: VAPOR INHALATION ALLEGATIONS AT HANFORD SITE

                                                             S***    Milestoned ****
                                                 Planned     End of Survey       Revised                      Actual
                                                                   --------------- -----------
                                                ------------------------------------                          -----------

                                              01-OCT-03                                01-MAR-04            01-MAR-04
   Entrance Conference:.....
   Survey:...................
   Draft Report:............
                                              30-SEP-04                                                     19-APR-04       (R
   Completed (With Report):.
   ------------        Elapsed Days:                365                                                           49
                                                                                              Elap. Less Susp:

   Date Suspended;                                                Date Terminated:
   Date Reactivated:                                            Date Cancelled:
   DaysSuspended(Cur/Tot) :                                   ) Report Number:         OAS-L-04-14

   Rpt Title:                             Report Type:     LTR LETTER REPORT
   REVIEW OF SELECTED ISSUES PERTAINING TO VAPOR INHALATION ALLEGATIONS AT THE HANFORD SITE


                                                  **** Audit Codes and Personnel             ****
   Class:         PER    PERFORMANCE
   Program:       EH3    Not Found
   MgtChall: 120         WORKER/COMMUNITY SAF                                   AD:    496      PIEPER
   Site:          SSA     SINGLE-SITE AUDIT                                                     CALWELL
                                                                               AIC:    748      CALDWELL
   SecMiss:       CMT    CORPORATE MANAGEMENT                             Teamdr        31
                                                                                       $31      BLACK
                                                                                                BLACK
                                                                          Team Ldr:
   PresInit:             Not Found                                        Tech Adv:    421      SCHULMAN

                                                    ****      Task Information ****

            Task No:
            Task Order Dt:                                        CO Tech. Rep:
            Orig Auth Hrs:                                        Orig Auth Costs:
            Current Auth:                                         Current Auth Cost:
            Tot Actl IPR Hr;                                      Tot Actl Cost:


                                                           ****    Time Charges ****

                       Emip/Cont Name             Numdays                Last Date

                        BLACK, J                           10.0          03-APR-04
                        CALDWELL, M                        19.3          03-APR-04
                       I Total                             29.3


                                                   S****   Keywords     ****


                       CHG
                       GAP
    04/22/04     THU 14:51 FAX 423 241 3897          OIG                                  44   HQ                 I009
                                               -----------------
                                      ---------------------------
                                 Audit      Project         Office    Summary     (APS)
                                                                                                             Page 2
.eport run on:             April 22,     2004 10:26 AM

                                         ****       Keywords ****


                 HANFORD
                 OSIA 300 LOGS
                 RECORDABLE INJURIES
                 VAPORS



    oc
                               S****    Location Information ****
   Code
           K_..........
           Description                                                                                 ......
   HEH     HANFORD ENVIRONMENTAL HEA

   OP1     OFFICE OF RIVER PROTECTIO

   OPC     CH2M HILL HANFORD GROUP

    RLF    FLUOR HANFORD,     INC

                                       ****Finding .Information *.***       Bud' Mgt DPt            Dept       Dept
   Find               Title                     .     .T     Amount   .Ifrs..mp  Pos Pos            Amount     Date
  04/22/04   THU 14:51 FAX 423 241 3897                OIG                             *   HQ    aJ010
                                     ---------------------------------------
                              Audit Project             Office Summary         (APS)

xeport run on:            April 22, 2004 10:26 AM                                               age



                                              Audit History      .

 Audit No:   A04IF035                      History Date:     20-APR-04
 History Text:
 REFERNCING WAS COMPLETED AND THE LETTER REPORT WAS ISSUED ON APRIL 19.




                                                      .j                                              ....
04/22/04   THU 14:50 FAX 423 241 3897                 OIG                           4-+4 HQ               i007



                             AUDIT DATABASE INFORMATION SHEET


   1. Project Number:                    A04IF035

   2. Title of Audit:                    Review of Selected Issues Pertaining to Vapor Inhalation
                                         Allegations at the Hanford Site

   3. Report Number and Date:             OAS-L-04-14; April 19, 2004


   4. Management Challenge Area:          120-Worker/Community Safety

   5. Presidential Mgmt Initiative:

   6. Secretary Priority/Initiative:

   7. Program Code:                       ESH-Env.. Safety & Health

   8. Location/Sites:                     Office of River Protection, Richland Washington; CH2M Hill
                                          Hanford Group, Richland Washington, Hanford
                                          Environmental Health Foundation, Richland Washington;
                                          Fluor Han ord, Richland Washington
   9. Finding Summary:

                   The audit concluded that the Hanford contractors, for the most part, correctly
                   classified the chemical vapor exposures cases reported in Appendix B of the GAP
                   report. Specifically, 35 of the 37 incidents reviewed were correctly recorded
                   according to the rules promulgated by the Occupational Safety and Health
                   Administration. For the 2 exposures that were incorrectly classified as non-
                   recordable, the contractor corrected the reporting of the cases when notified of the
                   results of the review.

   10. Keywords:          Worker Safety                          Tank Vapors
                          Injury and Illness Reporting           Exposure
                          Environment, Safety and Health         OSHA
                          Hanford
04/22/04   THU 14:51 FAX 423 241 3897                 OIG                             -+*4   HQ         o011

                                                  Audit #A031F037


            If your audit work or report deals with any of the following information, be sure to have
            your information reviewed by a classifier to ensure you are not inadvertently discussing
            Restricted Data or Formerly Restricted Data or any other level of classification.
            Information. in the aggregate can be classified even if taken from unclassified sources.

              AIDS FOR REVIEW OF INFORMATION THAT MAY BE                                     YES   NO
                            CLASSIFIED OR CONTROLLED
            Source or formula for Chemical/Biological Agents that has not been                     X
            widely reported in open scientific literature.

           Existence of a specific Chemical/Biological agent that is considered a                  X
           threat to national security at a specified location within a government
            facility.

           Statements that a specific Chemical/Biological agent considered a                       X
           threat to national security cann(t be detected by existing technology.

           Information concerning significant technical advances and break-                        X
           throughs in Chemical/Biological agent detection, dissemination, or
           response technologies that could significantly assist an adversary. _
           Results or interpretation of research results from computer modeling                    X
           that reveal specific operational deficiencies or vulnerabilities of a
           facility, infrastructure, or response plan which could be exploited or
           otherwise could materially aid an adversary in planning or conducting
           a Chemical/Biological, attack.

           Source term parameters (e.g. location, quantity, release rate, dispersal                X
           mechanisms, physical state, or particulate size distribution) of a
           Chemical/Biological agent and the airborne or surface concentrations
           resulting from dispersion modeling.

           Specific dispersion mechanisms for specific chemical/Biological                         X
           agents, including grinding techniques and pressurized systems that
           would be effective for dispersion over a large area.

           Details of operational scenarios either for intelligence, civilian, or                  X
           military organizations that would reveal current vulnerabilities or
           lessen the effectiveness of the scenarios.

           Information about deployment of a specific detector or response                         X
           system that could be used to defeat or significantly reduce the
           effectiveness of that system or otherwise materially aid an adversary
           in planning or conducting an attack.
04/22/04    THU 14:52 FAX 423 241 3897                 OIG                         --4   HQ         [012



                                                Audit #A031F037



           Descriptions of specific vulnerabilities of decontamination equipment              X
           or procedures that could be exploited to prevent or significantly
           reduce their ability to perform required functions or otherwise
           materially aid an adversary in planning or conducting a
           Chemical/Biological attack.

           Descriptions of specific conditions (e.g., carrier for an agent or                 X
           environmental condition) that could be exploited to reduced the
           effectiveness of standard decontaminants or decontamination
           procedures such that risks to unprotected personnel cannot be reduced
           to acceptable levels, or otherwise would aid an adversary in planning
           a Chemical/Biological attack.

           Nuclear weapon design, fabrication, and utilization.                               X

           Radiological warfare.                                                              X__

           Radiological dispersal devices.                                                    X

           Jnertial confinement fusion.                                                       X

            Military nuclear reactors (not necessary for civilian).                 _         X
04/22/04   THU 14:52 FAX 423 241 3897                OIG                              -*-*-   HQ              Z]013



                                               Audit No. A031F037

                                POTENTIALLY SENSITIVE INFORMATION

            The following table is a listing of information considered potentially sensitive. If the
            information is detailed to such an extent that it would cause or potentially could cause
            damage to U.S. national security, citizens, or property, it cannot be placed in our public
            reports. Therefore, when you prepare your reports be sure to check for this type of
            information.

                         CATEGORIES/TYPES OF INFORMATION                                       YES       NO
            Facilities
            > Detailed description and location of facilities to include maps,                           X
                written directions, drawings, blue prints, photographs and such.
            > Detailed descriptions and location of storage facilities -brnuclear or                     X
              other hazardous materials.
            > Detailed descriptions and location of personnel or facility support                        X
              systems (e.g. water supply, electrical supply systems,
              communications systems, emergency response
              personnel/equipment).
            > Detailed descriptions and locations of computer systems used to                            X
              process, store, and transmit sensitive information.
            > Environmental Impact Statements that provide the consequences for                          X
                what is being studied.
            >   Any detailed information pertaining to other sites that has not been                     X
                reviewed/approved by the other site.

            Materials
            > Form and quantity of hazardous materials, (chemical, nuclear,                              X
              biological).
            >   Vulnerabilities of materials to unauthorized access or destruction.                  I   X
            > Consequences of release of hazardous materials.                                            X
            > Detailed transportation related information (routes, maps, shipping                        X
              means, containers).

            Security/Safety
            > Detailed plans, procedures, communications, reaction times, or                             X
              capabilities that would allow someone to determine vulnerabilities
              of the site.
            > Specific assessments, exercise results, evaluations for a particular                       X
              site.
            > Specific personnel data identifying security/safety personnel.                             X
            > Specific equipment and its potential uses.                                                 X
04/22/04   THU 14:52 FAX 423 241 3897                    OIG                           *-. HQ       2014


                                                  Audit No. A03IF037


            Assessments
            SSite-specific vulnerability assessments.                                           X
            > Site-specific safety assessments/analysis.                                        X
            > Site specific risk analyses.
            > Specific hazardous assessments (Dispersion models and analyses,                   X
                  accident analyses, or site hazards).

            Personnel
            > Specific organization charts or phone lists identifying senior                    X
               management/key personnel.
            >     Specific personal data to include travel plans, meetings and such.     __     X
                " Specific training materials that include sensitive information.               X
            Programs
            > Detailed information identifying sensitive programs, special                      X
                  projects, SAPs, WFO.
            > Reports detailing specific activities and/or results from programs--              X
              and projects.
            > Information pertaining to specific programs at other facilities/sites             X
              that has not been cleared with the other sites for publication on a
              publicly accessible web site.
